                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM


I
    Case Number: I08050033
                                                                                11          Page 1 of 1



          This investigation was opened pursuant to an allegation that a university' sub-contractor2has
          been misappropriating NSF grant funds3.

          The University's Office of Audit conducted a review and determined that there were no financial
          irregularities. The University did find two minor charges made against the grant which are
          unallowable and the University will be submitting a refundlcredit back to NSF award for the full
          amount.

          No evidence was found to indicate any wrongdoing or that NSF funds were misappropriated.

1         Accordingly, this matter is closed.




1
NSF OIG Form 2 (1 1/02)
